Audit Report




   OIG-07-048

   FOREIGN ASSETS CONTROL: Actions Have Been Taken to
   Better Ensure Financial Institution Compliance With OFAC
   Sanction Programs, But Their Effectiveness Cannot Yet Be
   Determined

   September 20, 2007




Office of
Inspector General
Department of the Treasury
Contents

Audit Report...............................................................................................        1

    Results in Brief..........................................................................................      2

    Background ..............................................................................................       4

    Findings ...................................................................................................    7

        OFAC Did Not Seek Additional Legislative Authority, But Has Signed an MOU
        With Regulators to Share Information ..................................................... 7

        New OFAC Compliance Examination Guidelines Could Ensure Consistent
        Coverage .............................................................................................     10

    Recommendations .....................................................................................          12

    Other Matters Reported by FDIC OIG ...........................................................                 14


Appendices

    Appendix 1:           Objective, Scope, and Methodology ......................................                 16
    Appendix 2:           OFAC Actions Taken in Response to Six of the 2002 Report’s
                          Recommendations ..............................................................           18
    Appendix 3:           Management Response .......................................................              19
    Appendix 4:           Major Contributors to This Report .........................................              24
    Appendix 5:           Report Distribution..............................................................        25


Abbreviations

        FBAs              federal banking agencies
        FDIC              Federal Deposit Insurance Corporation
        FFIEC             Federal Financial Institutions Examination Council
        GAO               Government Accountability Office
        IRS               Internal Revenue Service
        MOU               memorandum of understanding
        NCUA              National Credit Union Administration
        OCC               Office of the Comptroller of the Currency
        OFAC              Office of Foreign Assets Control
OIG    Office of Inspector General
OTS    Office of Thrift Supervision
RFPA   Right to Financial Privacy Act
SDNs   Specially Designated Nationals and Blocked Persons
SEC    Securities and Exchange Commission




       FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page ii
       Financial Institution Compliance With OFAC Sanction Programs, but Their
       Effectiveness Cannot Yet Be Determined (OIG-07-048)
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                      September 20, 2007

                      Adam Szubin
                      Director, Office of Foreign Assets Control

                      This report presents the results of a follow-up audit we conducted
                      to determine whether the Office of Foreign Assets Control (OFAC)
                      had taken action to improve its ability to ensure that financial
                      institutions are complying with OFAC sanctions. In April 2002, we
                      reported that OFAC was limited in its ability to monitor financial
                      institution compliance. We recommended at the time that OFAC
                      inform Congress of legislative impairments which prevent OFAC
                      from conducting its own examinations of banks or having access to
                      their financial records.1

                      OFAC administers and enforces economic and trade sanctions
                      against targeted foreign countries, terrorists, international narcotics
                      traffickers, and those engaged in activities related to the
                      proliferation of weapons of mass destruction. Although not
                      required to have an OFAC compliance program by specific law or
                      regulation, financial institutions are required to block or reject any
                      transactions involving targeted individuals, companies, or other
                      organizations with a link to these entities. OFAC has direct
                      administrative and enforcement authority over regulated
                      institutions, but compliance examinations of banks and other
                      financial institutions are generally conducted by the five federal
                      banking agencies (FBAs) and other federal financial regulators.2 The

1
  Treasury Office of Inspector General (OIG), Foreign Assets Control: OFAC’s Ability to Monitor
Financial Institution Compliance Is Limited Due to Legislative Impairments, OIG-02-082 (Apr. 26, 2002).
2
  The FBAs are, within Treasury, the Office of the Comptroller of the Currency and Office of Thrift
Supervision, and external to Treasury, the Federal Deposit Insurance Corporation, Board of Governors of

                      FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure           Page 1
                      Financial Institution Compliance With OFAC Sanction Programs, but Their
                      Effectiveness Cannot Yet Be Determined (OIG 07-048)
                       regulators manage their compliance examinations independently
                       from OFAC.

                       We performed our fieldwork on this follow-up audit from
                       January 2005 to December 2006. During this period, we also
                       performed audits at the Office of the Comptroller of the Currency
                       (OCC) and the Office of Thrift Supervision (OTS) pertaining to their
                       OFAC compliance examination programs. A description of audit
                       objective, scope, and methodology is included as appendix 1.


Results in Brief
                       OFAC has not sought legislative change to improve its ability to
                       ensure financial institutions comply with OFAC sanctions. OFAC
                       management is satisfied with the current system. Management
                       believes, as it did in our prior audit, that there is a high degree of
                       compliance with its sanctions programs based on required blocking
                       and reject reports filed by financial institutions, the results of
                       OFAC’s follow-up on those reports, information received by OFAC
                       outside the system of required reporting, and the examinations of
                       financial institutions conducted by FBAs.

                       In response to our April 2002 report, OFAC did agree that
                       (1) regulator information sharing could be improved and
                       (2) increased oversight and detailed account reviews by regulators
                       could be beneficial. Since our prior report was issued, two
                       significant actions have occurred.

                       As the first action, in April 2006 OFAC entered into a
                       Memorandum of Understanding (MOU) with the FBAs to improve
                       information sharing so as to mitigate the risk of not being made
                       aware of financial institution noncompliance issues. Although it is
                       too early for us to evaluate its effectiveness, the MOU caveats that
                       FBAs share information with OFAC “to the extent permitted by
                       law, including the Right to Financial Privacy Act (RFPA).” OFAC
                       had previously indicated that a technical amendment to the RFPA
                       might be needed and that Treasury was reviewing the possibility of

the Federal Reserve System, and National Credit Union Administration. Other federal financial regulators
include the Securities and Exchange Commission, Commodity Futures Trading Commission, and Internal
Revenue Service.

                       FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 2
                       Financial Institution Compliance With OFAC Sanction Programs, but Their
                       Effectiveness Cannot Yet Be Determined (OIG 07-048)
                       such a change. OFAC currently believes that RFPA only minimally
                       impacts its ability to obtain information from regulators and
                       financial institutions. Accordingly, no changes to the RFPA have
                       been made or proposed.

                       As the second action, with regard to regulatory oversight, in
                       June 2005 the Federal Financial Institutions Examination Council
                       (FFIEC) 3 issued the Bank Secrecy Act/Anti-Money Laundering
                       Examination Manual (FFIEC manual). The FFIEC manual provides
                       comprehensive guidance for the FBAs to follow when conducting
                       OFAC compliance examinations.4 Based upon audits at OCC and
                       OTS by our office and audits by the Federal Deposit Insurance
                       Corporation (FDIC) Office of Inspector General (OIG) and National
                       Credit Union Administration (NCUA) OIG of their respective
                       agencies, this guidance was clearly needed. But as a matter that is
                       not addressed by the FFIEC manual, the four audits also found that
                       examination documentation did not provide persuasive evidence
                       that financial institution OFAC compliance programs were
                       adequate. In response, the four FBAs agreed to improve OFAC
                       examination documentation going forward.

                       Recognizing that these recent actions need time to mature, we are
                       recommending that OFAC monitor whether the OFAC-related
                       examination information the FBAs provide is sufficient to assess
                       compliance at specific institutions and for the overall banking
                       industry. If necessary, appropriate action should be taken, such as
                       seeking modification to the April 2006 MOU or requesting from
                       Congress an amendment to the RFPA. We also are recommending
                       that OFAC determine whether MOUs should be established with
                       other federal financial regulators and self-regulatory organizations5
                       for sharing information on financial institutions for which they have
                       OFAC oversight responsibility.


3
  The FFIEC, established under title X of the Financial Institutions Regulatory and Interest Rate Control
Act of 1978, is a formal interagency body empowered to prescribe uniform principles, standards, and
report forms for the examination of financial institutions by the federal bank regulators. The Financial
Services Regulatory Relief Act of 2006 added a representative state regulator as a full voting member.
4
  The FFIEC manual was updated in 2006 and 2007.
5
  Self-regulatory organizations are non-government organizations that have statutory responsibility to
regulate their own members, such as the New York Stock Exchange and National Association of
Securities Dealers.

                       FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 3
                       Financial Institution Compliance With OFAC Sanction Programs, but Their
                       Effectiveness Cannot Yet Be Determined (OIG 07-048)
             Our April 2002 report also included six recommendations to
             improve other aspects of OFAC sanction program administration.
             We found that OFAC has taken or is in the process of taking
             appropriate corrective actions as described in appendix 2.

             In response to our draft report, OFAC reiterated its previously
             stated position that that the information it obtains from mandatory
             blocking and reject reports and from other sources, complemented
             by information shared by the FBAs under the MOU, enable it to
             adequately assess compliance at specific institutions and for the
             overall banking industry. According to OFAC, RFPA is a minor
             hindrance because OFAC has sufficient authority and access to
             violation and examination information. OFAC, however, will
             continue to monitor the situation to assure the usefulness of
             information from financial institution examinations. Regarding
             information sharing with self-regulatory organizations and the
             Internal Revenue Service (IRS), OFAC said it shares information
             with the Securities and Exchange Commission (SEC) and self-
             regulatory organizations, and is in process of establishing an MOU
             with IRS. OFAC will monitor the efficiency and effectiveness of the
             procedures established with SEC and the self regulatory agencies
             and make adjustments as necessary. OFAC has also signed MOUs
             with 17 state banking agencies. OFAC’s response is included in
             this report as appendix 3.


Background
             OFAC Mission

             The mission of OFAC, an office within the Department of the
             Treasury’s Office of Terrorism and Financial Intelligence, is to
             administer and enforce economic and trade sanctions, based on
             U.S. foreign policy and national security goals, against targeted
             foreign countries, regimes, terrorists, international narcotics
             traffickers, and those engaged in activities related to the
             proliferation of weapons of mass destruction. OFAC acts under
             presidential wartime and national emergency powers, as well as
             authority granted by specific legislation, to impose controls on
             transactions and freeze foreign assets under U.S. jurisdiction.


             FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 4
             Financial Institution Compliance With OFAC Sanction Programs, but Their
             Effectiveness Cannot Yet Be Determined (OIG 07-048)
                       Economic sanctions are intended to deprive the target of the use of
                       its assets and deny the target access to the U.S. financial system
                       and the benefits of trade, transactions, and services involving U.S.
                       markets. To prohibit commercial or financial transactions involving
                       sanctioned countries, entities, or individuals, OFAC primarily relies
                       on delegations of authority made pursuant to the President’s broad
                       powers under the Trading With the Enemy Act and the
                       International Emergency Economic Powers Act. OFAC currently
                       administers 30 economic sanctions programs pursuant to
                       presidential and congressional mandates. Though 8 of these
                       30 programs have been terminated, they still require residual
                       administrative and enforcement activities.

                       As part of its enforcement efforts, OFAC publishes on its web site
                       a list of individuals and companies controlled by, or acting on
                       behalf of, targeted countries. It also lists individuals, groups, and
                       entities, such as terrorists and narcotics traffickers designated
                       under programs that are not country-specific. Collectively, such
                       individuals and companies are called Specially Designated Nationals
                       and Blocked Persons (SDNs).

                       Financial Institution Responsibilities

                       In order to ensure that a transaction is not processed in violation of
                       OFAC sanctions, financial institutions by necessity should have
                       systems to adequately monitor their financial transactions. When a
                       transaction is found to match an entry on OFAC’s listings, the
                       transaction must either be blocked or rejected. A blocked
                       transaction immediately imposes an across-the-board prohibition
                       against transfers or dealings of any kind regarding the account.6 A
                       rejected transaction is one that does not contain a blockable
                       interest,7 but nonetheless cannot be processed without violating


6
  The blocked funds are placed in an interest-bearing account by the financial institution and are not to
be released without an official OFAC license authorizing the release of the funds. OFAC does not take
possession of any funds that are blocked.
7
  As an example cited in OFAC literature, the Sudanese Sanctions Regulations prohibit transactions in
support of commercial activities in Sudan. Therefore, a bank would have to reject a funds transfer
between two companies if the transfer involves an export to a company in Sudan even if the companies
are not SDNs. Because Sudanese Sanctions would only require blocking transactions with the
Government of Sudan or SDNs, there would be no blockable interest in the funds between the two

                       FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 5
                       Financial Institution Compliance With OFAC Sanction Programs, but Their
                       Effectiveness Cannot Yet Be Determined (OIG 07-048)
                       OFAC prohibitions. When a financial institution blocks or rejects a
                       transaction, the institution is required to file a report with OFAC
                       within 10 business days.

                       OFAC can impose civil penalties, criminal penalties, or both for
                       noncompliance with the established sanctions. Civil penalties can
                       range from $11,000 to $1 million per infraction, and criminal
                       violations can result in corporate and personal fines of up to
                       $10 million and imprisonment for up to 30 years.

                       Role of Regulators

                       OFAC generally relies on regulators to ensure that financial
                       institutions implement appropriate programs to help ensure that the
                       financials institutions do not process transactions in violations of
                       OFAC sanctions. OFAC’s access to information held by the FBAs is
                       restricted under RFPA. Specifically, information obtained by FBAs
                       involving an account of an individual on the books of a U.S.
                       financial institution cannot be shared with anyone other than
                       another financial regulator. In this regard, RFPA does not define
                       OFAC as a regulator; therefore, this subset of information can only
                       be shared in redacted form. OFAC can request and receive this
                       information directly from the financial institution using its own
                       authorities.

                       GAO Audit

                       In September 2004, the Government Accountability Office (GAO)
                       issued a report that recommended that Treasury seek legislative
                       authority, if necessary, to enhance OFAC’s ability to ensure
                       financial institution compliance with sanctions by allowing
                       regulators to share complete information from their examinations
                       with OFAC.8 Treasury responded by maintaining that it was
                       uncertain whether legislative changes were necessary to enhance
                       information sharing between OFAC and regulators. Treasury
                       stressed that it had confidence in the manner and level of


companies. However, because the transactions would constitute support of Sudanese commercial
activity, which is prohibited, the bank can not process the transaction and must reject the transaction.
8
  GAO, Foreign Regimes’ Assets: The United States Faces Challenges in Recovering Assets, but Has
Mechanisms That Could Guide Future Efforts, GAO-04-1006 (Sept. 14, 2004).

                       FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 6
                       Financial Institution Compliance With OFAC Sanction Programs, but Their
                       Effectiveness Cannot Yet Be Determined (OIG 07-048)
            compliance and monitoring that occurred in the current system and
            stated that comprehensive arrangements would be in place shortly
            to enhance information sharing between OFAC and regulators.

Findings

Finding 1   OFAC Did Not Seek Additional Legislative Authority, But
            Has Signed an MOU With Regulators to Share Information

            In our April 2002 report, we recommended that Treasury inform
            Congress that OFAC lacks sufficient authority to ensure that
            financial institutions comply with OFAC sanctions requirements.
            OFAC did not agree that its monitoring efforts were hampered by a
            lack of legislative authority and asserted, both in response to our
            earlier report and today, that there is a high degree of financial
            institution compliance with OFAC sanctions. Although OFAC did
            not seek legislative change, OFAC management agreed that it
            could benefit from regulators sharing more information with OFAC.
            As a means of achieving this end, the five FBAs and OFAC signed
            an MOU in April 2006 to facilitate the sharing of OFAC-related
            examination results.

            While it is too early to evaluate the effectiveness of the MOU,
            OFAC offered several examples of how the MOU has facilitated
            communication with the FBAs. Even with the MOU in place, RFPA-
            related restrictions involving accounts of individuals at U.S.
            financial institutions exist. OFAC believes the restrictions are
            minimal and do not affect information sharing.

            OFAC Believes its Authority is Sufficient

            In response to our April 2002 report, OFAC asserted that it did not
            need additional legislative authority to ensure that U.S. financial
            institutions are complying with OFAC sanctions. OFAC’s position,
            which has not wavered, is that the overall compliance level is very
            strong and the monitoring that occurs under the current system is
            sufficient. In addition, according to OFAC, the banking industry has
            developed a heightened awareness of OFAC regulations and
            prohibitions on dealing with targeted entities and extensively uses
            interdict software to identify illegal transactions. Furthermore,

            FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 7
            Financial Institution Compliance With OFAC Sanction Programs, but Their
            Effectiveness Cannot Yet Be Determined (OIG 07-048)
OFAC believes that testing of transactions at the tens of thousands
of financial institutions would duplicate the work of regulators and
require a massive new OFAC bureaucracy, while not having a
significant effect on compliance.

Our April 2002 report did not recommend or suggest that OFAC
establish a new bureaucracy to duplicate the work of regulators.
However, we believed then, as we do now, that by relying
primarily on third parties to assess financial institutions’ compliance
with OFAC requirements, OFAC may be at risk of not knowing of
noncompliance issues.

Specifically, both OFAC and regulators are barred by statute from
sharing certain information about accounts of individuals at U.S.
financial institutions. To make such information sharing easier,
OFAC had previously indicated that a technical amendment to the
RFPA might be needed and that Treasury was reviewing the
possibility of such a change. OFAC currently believes that the
RFPA is only minimally restrictive and access to financial institution
information is generally satisfactory. Thus, no changes to the RFPA
have been made or proposed.

Effect of MOU on Sharing of OFAC-Related Compliance
Examination Results Are Not Fully Known

In April 2006, OFAC and the five FBAs (OCC, OTS, FDIC, Board of
Governors of the Federal Reserve System, and NCUA) signed an
MOU that established procedures for the exchange of certain
information between OFAC and the regulators. The MOU’s purpose
is to address RFPA-related restrictions that have prevented OFAC
from obtaining OFAC-related examination results from the
regulators. However, based on the terms of the MOU, the
information exchange may still be restricted by RFPA.

The FBAs are to notify OFAC promptly of any apparent, unreported
sanctions violations discovered in the course of an examination. In
addition, they are to notify OFAC when significant deficiencies are
discovered in a financial institution’s policies, procedures, and
processes for ensuring compliance with OFAC regulations. Finally,
in cases in which OFAC-related deficiencies have been identified,
OFAC may make a written request for information relating to the

FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 8
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
                      examination or the supervisory findings regarding a financial
                      institution’s policies, procedures, and processes for ensuring OFAC
                      compliance. The FBAs are to provide the examination information
                      and other information specified in the MOU to the extent permitted
                      by law, including the RFPA. Since no change has been made to the
                      RFPA statute, it is unclear how restrictive this caveat will be.
                      However, OFAC believes that the caveat will not have a significant
                      effect on information sharing.

                      Furthermore, because the MOU was recently signed, it is too soon
                      to assess its effectiveness in improving information sharing
                      between examiners and OFAC. However, OFAC believes the MOU
                      has been beneficial. OFAC said FBAs have provided information in
                      response to OFAC requests or in problematic situations where the
                      regulator did not have responsibility. In addition, OFAC said it had
                      requested that they perform examinations where a financial
                      product appeared risky. We did not verify this information.

                      We believe the restriction on sharing information related to
                      individual accounts maintained at U.S. financial institutions could
                      reduce its effectiveness. As mentioned before, the provisions of
                      the MOU are subject to constraints imposed by RFPA. Although
                      OFAC believes that RFPA imposes minimal constraints, the MOU’s
                      effectiveness in improving the sharing of information remains
                      uncertain and untested at this point. Also, the MOU may be
                      terminated by OFAC or any of the FBAs with 30 days written
                      notice.

                      In December 2006, OFAC informed us that it was working with the
                      Council of State Bank Supervisors to enter into MOUs with state
                      supervisory agencies. In its September 2007 response to our draft
                      report, OFAC stated that it now has MOUs with 17 state agencies.
                      It should be noted that in addition to state-regulated banks, OFAC
                      requirements impact self-regulatory organizations regulated by SEC
                      and the Commodity Futures Trading Commission and certain
                      industries regulated by the IRS.9 Accordingly, OFAC needs to
                      determine whether MOUs should be established with these
                      agencies as well.

9
 Industries regulated by the IRS for Bank Secrecy Act and OFAC compliance include casinos, money
services businesses, insurance companies, and jewelers.

                      FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 9
                      Financial Institution Compliance With OFAC Sanction Programs, but Their
                      Effectiveness Cannot Yet Be Determined (OIG 07-048)
Finding 2               New OFAC Compliance Examination Guidelines Could
                        Ensure Consistent Coverage

                        In an effort to implement uniform Bank Secrecy Act and OFAC
                        examination procedures among the FBAs, in June 2005 the FFIEC
                        released the Bank Secrecy Act/Anti-Money Examination Laundering
                        Manual. 10 OFAC partnered with the FBAs to create the OFAC
                        examination section of the FFIEC manual.

                        The FFIEC manual states that, as a matter of sound banking
                        practice and in order to ensure compliance, a bank should establish
                        and maintain an effective, written OFAC compliance program. The
                        program should identify high-risk areas, provide for appropriate
                        internal controls for screening and reporting, establish independent
                        testing for compliance, designate a bank employee or employees as
                        responsible for OFAC compliance, and create training programs for
                        appropriate personnel in all relevant areas of the bank. Part of the
                        FFIEC guidance prescribes that a fundamental element of a sound
                        OFAC program is the bank’s assessment of its specific product
                        lines, customer base, and nature of transactions and identification
                        of the high-risk areas for OFAC transactions. A bank’s OFAC
                        program should be commensurate with its respective OFAC risk
                        profile.

                        According to the FFIEC manual, FBAs are to examine financial
                        institutions to determine the adequacy of each institution’s OFAC
                        program and the effectiveness of its risk management program.
                        Based on the risk determination of the institution under
                        examination, as well as a review of prior examination reports and
                        internal audit findings for the institution, the examiners then select
                        which policies and procedures to verify.




10
  Among other things, the Bank Secrecy Act, as amended, requires financial institutions to report
certain currency transactions and suspicious financial activity to Treasury. Financial institutions are also
specifically required to maintain a Bank Secrecy Act compliance program. Treasury’s Financial Crimes
Enforcement Network, a Treasury bureau under the Office of Terrorism and Financial Intelligence, is the
administrator of the Bank Secrecy Act.

                        FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 10
                        Financial Institution Compliance With OFAC Sanction Programs, but Their
                        Effectiveness Cannot Yet Be Determined (OIG 07-048)
                      The FFIEC manual also states that examinations should include
                      transaction testing.11 However, examiners may generally limit
                      transaction testing to only those high risk areas identified in the
                      bank’s risk assessment. For OFAC, depending on assessed risk, the
                      examiners may choose to use transaction testing to evaluate,
                      among other things, the bank’s handling of new accounts, controls
                      over the use of interdict software, handling of blocked
                      transactions, and/or the resolution of “hits.”

                      We believe the FFIEC guidance was needed. Prior to the guidance
                      being issued, each FBA implemented its own examination steps to
                      assess compliance with OFAC sanctions programs. Transaction
                      testing was discretionary, and based on our reviews of OCC and
                      OTS examination workpapers and interviews with examiners, was
                      a procedure rarely done during examinations.

                      We do have a concern in that the FFIEC manual does not address
                      how OFAC compliance examinations are to be documented. When
                      reviewing examinations conducted by OCC and OTS, we found
                      that the available examination documentation was generally
                      insufficient for us to determine whether examiners adequately
                      assessed OFAC program compliance. As a result, we were unable
                      to provide OFAC with reasonable assurance that the examination
                      results regarding OFAC compliance were valid and reliable.12 OCC
                      and OTS officials stated that their procedures did not require the
                      examiners to fully document results when they found OFAC
                      compliance programs adequate. In response to our
                      recommendations, both regulators agreed to better document
                      examination results going forward.



11
   As provided in the FFIEC manual, examiners perform transaction testing to evaluate the adequacy of
the bank’s compliance with regulatory requirements, determine the effectiveness of its policies,
procedures, and processes, and evaluate suspicious activity monitoring systems. Transaction testing is
an important factor in forming conclusions about the integrity of the bank’s overall controls and risk
management processes and must be performed at each examination. The extent of transaction testing
and activities where it is performed is based on various factors, including the examiner’s judgment of
risks, controls, and the adequacy of the independent testing by the bank’s internal audit section.
 12
    Treasury OIG, Foreign Assets Control: Assessing OCC’s Examination of OFAC Compliance Was
 Hampered by Limited Documentation, OIG-06-033 (Jul. 31, 2006); and Foreign Assets Control:
 Assessing OTS's Examination of OFAC Compliance Was Hampered by Limited Documentation, OIG-06-
 044 (Sept. 26, 2006).

                      FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 11
                      Financial Institution Compliance With OFAC Sanction Programs, but Their
                      Effectiveness Cannot Yet Be Determined (OIG 07-048)
                      While our audit work at OCC and OTS covered OFAC examinations
                      performed before the FFIEC manual was issued, audits by the FDIC
                      OIG and NCUA OIG covered examinations after the manual was
                      issued and also found documentation issues. In this regard, FDIC
                      OIG issued an audit report in December 2006 which found that
                      FDIC could improve its approach to OFAC compliance by
                      monitoring and tracking sanction violations, compliance
                      deficiencies, and enforcement actions. FDIC OIG also cited the
                      need for better documenting of workpapers for examination
                      planning and contact with OFAC, completing core exam
                      procedures, and concluding on the adequacy of the OFAC
                      compliance programs and interdiction systems. These measures
                      could assist OFAC and FDIC to address risks associated with OFAC
                      noncompliance.13 Similarly, the NCUA OIG reported in
                      December 2006, that its efforts to evaluate and verify examiners’
                      conclusions regarding OFAC compliance were hampered by a lack
                      of information.14 The OIG of the Federal Reserve System is also
                      conducting an audit of OFAC compliance examinations performed
                      by selected Federal Reserve Banks, but has not yet completed its
                      work.


Recommendations
                      We recommend that the Director of OFAC do the following:

                          1. Determine whether the OFAC-related examination
                             information provided by the federal bank regulators under the
                             April 2006 MOU is sufficient for OFAC to assess compliance
                             at specific institutions and for the overall banking industry. If
                             not, action should be taken to modify the MOU or request
                             from Congress, through appropriate means, an amendment
                             to the Right to Financial Privacy Act.

                              Management Response

                              OFAC believes that information it obtains from mandatory
                              blocking and reject reports and from other sources,

13
   FDIC OIG, FDIC’s Supervision of Financial Institutions’ OFAC Compliance Programs, 07-001 (Dec.
2006).
14
   NCUA OIG, Office of Foreign Assets Control Compliance Review,OIG-06-09 (Dec. 18, 2006).

                      FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 12
                      Financial Institution Compliance With OFAC Sanction Programs, but Their
                      Effectiveness Cannot Yet Be Determined (OIG 07-048)
        complemented by the information shared by the FBAs under
        the MOU with OFAC, enables it to adequately assess
        compliance at specific institutions and for the overall banking
        industry. According to OFAC, the limitations on information
        sharing required by the RFPA are minor and do not hinder its
        ability to administer and enforce its sanctions programs. The
        regulators and OFAC notify one another of transactions and
        accounts that appear to involve violations of sanctions
        regulations and share covered material in redacted form. The
        regulators inform the banks they regulate about their
        obligations to contact OFAC directly. Both OFAC and the
        FBAs have their own authorities to obtain information from
        financial institutions. Any relevant information which is
        redacted can be obtained by OFAC directly from banks using
        its own administrative subpoena authority. OFAC will
        continue to monitor the situation to assure that the
        examination process provides useful information in
        evaluating institutions and their compliance with OFAC
        regulations.

        OIG Comment

        OFAC’s commitment to monitor this area addresses the
        intent of our recommendation.

    2. Determine whether MOUs should be established with self-
       regulatory organizations and the IRS for sharing information
       on financial institutions for which they have OFAC oversight
       responsibility.

        Management Response

        Earlier this year, the Under Secretary for the Office of
        Terrorism and Financial Intelligence delegated authority to
        the IRS to enable it to examine institutions for compliance
        with OFAC regulations where it has examination authority
        for Bank Secrecy Act compliance. An MOU is currently in
        process to enable greater information sharing between IRS
        and OFAC. OFAC will monitor the effectiveness of the
        arrangement and make adjustments as necessary.


FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 13
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
                              OFAC now has MOUs with 17 state agencies as well as
                              with all of the FBAs and a separate MOU with the FDIC’s
                              Division of Resolutions and Receiverships.

                              According to OFAC, it enjoys an open dialogue and free
                              exchange of information with SEC and the securities industry
                              self-regulatory organizations. SEC shares information with
                              OFAC on an as-needed basis through the use of “Access
                              Letters.” OFAC said that whenever such letters have been
                              sent by OFAC based on its dialogue with the SEC, detailed
                              case information has always been timely forthcoming. OFAC
                              said it will continue to monitor the efficiency and
                              effectiveness of these procedures and make adjustments as
                              necessary.

                              OIG Comment

                              OFAC’s actions, if implemented as described, satisfy the
                              intent of our recommendation.

Other Matters Reported by FDIC OIG
                      In its December 2006 report, the FDIC OIG noted, as a matter for
                      congressional consideration, that a more comprehensive statutory
                      and regulatory framework exists for ensuring compliance with the
                      Bank Secrecy Act than for OFAC compliance, although both laws
                      address national security and law enforcement concerns.15 In this
                      regard, Executive Order 13224 expanded the scope of U.S.
                      sanctions against international terrorists and terrorist organizations,
                      and OFAC’s authority related to such, but there was no statutory
                      change to recognize OFAC’s expanded authority. Additionally, the
                      Order did not address the FBAs’ authorities related to OFAC
                      examination coverage or enforcement. The FDIC OIG report
                      provides an extensive analysis of this matter.

                      FDIC OIG also noted that our office, in our April 2002 report, and
                      GAO, in its September 2004 report, concluded that OFAC is limited
                      in its ability to monitor financial institution compliance with

15
  FDIC OIG, FDIC’s Supervision of Financial Institutions’ OFAC Compliance Programs, 07-001
(Dec. 2006).

                      FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 14
                      Financial Institution Compliance With OFAC Sanction Programs, but Their
                      Effectiveness Cannot Yet Be Determined (OIG 07-048)
sanction requirements and does not have the authority to conduct
examinations or proactively monitor financial institutions for
compliance. In written comments provided to FDIC OIG, OFAC
disagreed that its authority to investigate and conduct compliance
reviews is impaired.

Included in OFAC’s response to our report is its response to the
FDIC OIG on this matter. See appendix 3.

                                  ******

We would like to extend our appreciation to OFAC personnel for
the cooperation and courtesies extended to our staff during the
reviews. If you have any questions, please contact me at
(617) 223-8640, or Stephen Syriala, Audit Manager, at
(617) 223-8643.


/s/
Donald P. Benson
Director




FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 15
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
Appendix 1
Objective, Scope, and Methodology




Our objective was to follow up on a 2002 OIG audit report and
review current Office of Foreign Assets Control (OFAC) monitoring
efforts to ensure financial institution compliance with OFAC
sanctions programs. We interviewed OFAC officials and staff in
OFAC’s Office of Compliance, Civil Penalties Division, and
Licensing Division to determine what changes had been made to
the program since 2002 and the current status of their efforts.

We reviewed and confirmed that OFAC had taken action to address
six of the eight recommendations from the 2002 OIG audit report
by developing new policies and procedures or by implementing
replacement programs. (See appendix 2 for a summary of the
recommendations and OFAC actions.) OFAC did not agree with the
other two recommendations in the prior report. As a result, we
focused on issues related to these two recommendations, which
involved OFAC’s ability to monitor financial institution compliance
with OFAC sanction programs.

We reviewed data reported by the Office of Compliance regarding
the number of blocked and rejected financial transactions and the
identity of the institutions involved in those transactions. We
identified and reviewed OFAC penalty cases and warning letters
issued.

We also reviewed the provisions of the April 2006 Memorandum of
Understanding pertaining to the exchange of examination results
between OFAC and the various regulators and the sections of the
June 2005 Federal Financial Institutions Examinations Council Bank
Secrecy Act/Anti-Money Laundering Manual (FFIEC manual) relating
to OFAC. The FFIEC manual, which provides comprehensive
guidance for the federal bank regulators to follow when conducting
OFAC compliance examinations, was updated in 2006.

As part of our OFAC coverage, we separately audited the coverage
provided by the Office of Comptroller of the Currency and Office of
Thrift Supervision examiners in assessing financial institutions’
OFAC policies and procedures and issued reports on these audits.
We also coordinated with the Federal Deposit Insurance
Corporation OIG, the National Credit Union Administration OIG, and


FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 16
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
Appendix 1
Objective, Scope, and Methodology




the Federal Reserve Board OIG when they were planning similar
audits at their respective agencies.

We conducted our audit from March 2005 to December 2006. We
performed our review in accordance with generally accepted
government auditing standards.




FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 17
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
Appendix 2
OFAC Actions Taken in Response to Six of the 2002 Report’s Recommendations




Our April 2002 report included six recommendations related to
Office of Foreign Assets Control (OFAC) sanction program
administration. Specifically, we recommended that OFAC

•   Establish processing procedures for financial transactions
    reported.
•   Develop a standardized form to be used when reporting blocked
    and/or rejected transactions.
•   Review its Blocked/Rejected Transactions database to identify
    and remove duplicates.
•   Research the feasibility of developing procedures to reconcile
    the Annual Blocked Property Report to the Blocked/Rejected
    Transactions database.
•   Ensure that the licensing database is updated.
•   Adhere to its penalty guidance when establishing accounts
    receivable.

In response to the recommendations, OFAC implemented a
Blocked/Rejected Transactions database and is in the process of
implementing a uniform electronic response which banks will use to
report such transactions. OFAC adopted new procedures that
ensure that duplicate entries are identified and addressed. OFAC
also updated the database throughout the licensing process for
each record within the new system. With respect to developing
procedures to reconcile the Annual Blocked Property Report to the
data, OFAC decided that the reconciliation would require far too
many resources and there were no material advantages to carrying
out the reconciliation. We assessed OFAC’S reasons and agree
with its decision. Furthermore, we found that OFAC now includes
all the relevant information in a new form when setting up
accounts receivable for penalty amounts due the government.




FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 18
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 19
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 20
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 21
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 22
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
Appendix 3
Management Response




FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 23
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
Appendix 4
Major Contributors to This Report




Stephen Syriala, Audit Manager
Thomas Mason, Auditor-in-Charge
Horace Bryan, Referencer




FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 24
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
Appendix 5
Report Distribution




The Department of the Treasury

Under Secretary, Office of Terrorism and Financial Intelligence
Assistant Secretary, Terrorist Financing and Financial Crimes
Office of Strategic Planning and Performance Management
Office of Accounting and Internal Controls

Office of Foreign Assets Control

Director

Office of Management and Budget

OIG Budget Examiner




FOREIGN ASSETS CONTROL: Actions Have Been Taken to Better Ensure          Page 25
Financial Institution Compliance With OFAC Sanction Programs, but Their
Effectiveness Cannot Yet Be Determined (OIG 07-048)
